n

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amici Curiae National Conference of State
Legislatures, National Association of Counties,
National League of Cities, U.S. Conference of Mayors,
International City/County Management Association,
International Municipal Lawyers Association,
National School Boards Association, and National
Public Employer Labor Relations Association in
Support of Petitioners in 20-1374, CVS Pharmacy,
Inc.; Caremark, L.L.C.; Caremark California Specialty
Pharmacy, L.L.C. v. John Doe, One et al., on behalf of
themselves and all others similarly situated, were sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day Service and e-mail to
the following parties listed below, this 10th day of
September, 2021:
Lisa Schiavo Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com

Counsel for Petitioners
Gerald Sinclair Flanagan
Consumer Watchdog
6330 San Vicente Blvd., Suite 250
Los Angeles, CA 90048
(310) 392-0522
jerry@consumerwatchdog.org

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Michael H. McGinley
Counsel of Record
Justin M. Romeo
Eric D. Hageman
Noah S. Becker
Dechert LLP
1900 K Street, NW
Washington, DC 20006
michael.mcginley@dechert.com
(202) 261-3300
Lisa E. Soronen
Executive Director
State and Local Legal Center
444 N. Capitol St., NW Suite 515
Washington, DC 20001
(202) 434-4845

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 10, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ti;;r}u, U9 , J oJ (

J~k- f;J '

Notary Public

.
~

·

[seal]

JOHN 0. GALLAGI ll::R
Notary Public, State of Ohio
My Commlsslon Expire1;
r l:lruarv 14 . ., l ' j

